Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services
Grants to the El Paso Police Department
El Paso, Texas
GR-80-01-013
May 30, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the El Paso, Texas Police Department (EPPD).  The purpose of the grants is to enhance community policing.  The EPPD was awarded a total of $20,706,630 to hire 231 new police officers, and $3,606,831 to hire 42 civilians, purchase equipment, and redeploy the equivalent of 86.3 existing full-time police officers from administrative duties to community policing.

We found the EPPD to be in material non-compliance with COPS' grant requirements.  We reviewed the EPPD's compliance with seven essential grant conditions and found weaknesses in four of the seven areas we tested: budgeting for officers, hiring of officers, retention and redeployment tracking.  As a result of these deficiencies identified below, we question $7,197,770 in grant funds received and recommend an additional $314,344 be put to better use. 1

Funds budgeted for local salaries and benefits decreased in FY 1996 from FY 1997 amounts.
	The EPPD did not increase its police force by the number of officers funded by the COPS hiring grants.  In our judgment, the grantee is in violation of COPS' non-supplanting requirement.
	The EPPD has not retained the now expired AHEAD and UHP Supplements 1-3 funded positions and, in our judgment, will not retain the UHP Supplement 4 funded officer positions when the award expires in August 2002.  
	The EPPD did not document redeployment under the MORE 98 grant.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.
 



Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.